No.

 

 

IN THE

SUPREME COURT OF THE UNITED STATES

 

Douglas Kelly — PETITIONER
(Your Name)
VS.
__ United States of America__ — RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

Please check the appropriate boxes:

 

Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):

 

 

 

 

 

w Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.

 

Petitioner's affidavit or declaration in support of this motion is attached hereto.

 

 

 

gZ Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:

WThe appointment was made under the following provision of law:
Criminal Justice Act (18 U.S.C, Section 3006(A)

Ka copy of the order of appointment is appended.

  
Case 1:14-cr-00070-YK-MCC Document 264 Filed 12/09/14 Page 1of1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA

UNITED STATES OF AMERICA : CRIMINAL NO. 1:14-CR-70

(JUDGE KANE)
v.

DOUGLAS KELLY

Defendant

ORDER

 

AND NOW, on this 8th day of December, 2014, IT IS HEREBY ORDERED
THAT Defendant’s Motion to Withdraw Counsel is GRANTED. L. Rex Bickley,
Esquire, is terminated as Defendant’s counsel. Richard Maffett is appointed as

Defendants new counsel to represent the Defendant in the above-captioned case.

_S/ Yvette Kane
Yvette Kane, District Judge
United States District Court
Middle District of Pennsylvania

 
Case: 17-3777 Document: 003112809123 Page:1 Date Filed: 12/21/2017

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 17-3777

 

USA v. Douglas Kelly

(U.S. District Court No. 1-14-cr-00070-002)

ORDER REGARDING APPOINTMENT OF COUNSEL

Richard F. Maffett, Jr., Esq. is hereby appointed to represent Douglas Kelly on appeal.
The appointment will be created in the Court’s e Voucher program. Counsel is directed to the
eVoucher page for information regarding the appointment terms and procedures.

CJA 20, 30, 21 and 31 vouchers are submitted for payment through the Court’s eVoucher
program. Upon receiving separate email notification of this appointment from the Court’s CJA
staff, counsel may create CJA 20, 30, 21 and 31 vouchers for use in maintaining time and
expense records and paying for expert services.

Authorization for preparation of transcripts must be obtained in the District Court.
Deadlines for ordering and filing the transcripts will be set by this Court. Counsel is required to
file the transcript purchase order in this Court and should indicate in Part 1B of the form that the
"CJA form submitted to District Court Judge". Counsel must complete the transcript request by
filing an "Auth-24" request in the District Court’s eVoucher program. Financial arrangements for
the transcripts will not be considered complete until counsel has submitted an "Auth-24" request
through the District Court’s eVoucher program.

For the Court,

s/ Marcia M. Waldron
Clerk

Dated: December 21, 2017

DW/ce:
James T. Clancy, Esq.
Michael A. Consiglio, Esq.
William S. Houser, Esq.
Richard F, Maffett, Jr., Esq.
Joseph J. Terz, Esq.
